           OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Quality Control Review Report




     Weiss, Sugar, Dvorak & Dusek, Ltd.,
     Single Audit of the Delta Institute and
     Affiliates for Year Ended June 30, 2003

     Report No. 2006-S-00004


     August 17, 2006
Report Contributors:		             Leah Nikaidoh
                                   Larry Gunn
                                   James Clark




Abbreviations

AICPA        American Institute of Certified Public Accountants
CFDA         Catalog of Federal Domestic Assistance
EPA          U.S. Environmental Protection Agency
GAO          Government Accountability Office
GAS          Government Auditing Standards
OIG          Office of Inspector General
OMB          Office of Management and Budget
                         U.S. Environmental Protection Agency                                            2006-S-00004


                         Office of Inspector General                                                    August 17, 2006






                         At a Glance
                                                                         Catalyst for Improving the Environment

Why We Did This Review                     Quality Control Review of Weiss, Sugar, Dvorak &
We selected this Delta Institute single    Dusek, Ltd., Single Audit of the Delta Institute and
audit report for review as part of our     Affiliates for Year Ended June 30, 2003
continual review of single audit
report quality under Office of             What We Found
Management and Budget (OMB)
Circular A-133.                           Weiss, Sugar, Dvorak & Dusek, Ltd., did not have sufficient quality control
                                          review procedures in place to ensure that all audit work performed was
Background
                                          adequately supported by documentary evidence, as required by the
                                          government auditing standards. As a result, we found that one finding
Under OMB Circular A-133, entities
                                          presented in the single audit report had no documented evidence to support
that expend Federal funds of
                                          this finding. Until these deficiencies were corrected, we did not have
$300,000 in a year are required to
                                          assurance that the single auditor met generally accepted government
have a single audit conducted. For
the year ended June 30, 2003, Delta       auditing standards.
Institute expended about $420,000 for
work under the Great Lakes Programs        What We Recommend
(CFDA (Catalog of Federal and
Domestic Assistance) No. 66.606 and       We recommended that Weiss, Sugar, Dvorak & Dusek, Ltd.:
66.469). Delta Institute had two
affiliates that worked with them:              1.		 Implement adequate quality control procedures to ensure that all
ChicagoLand Redevelopment                           audit work, regardless of who performs the audit, is reviewed, to
Institute and Northern Indiana Center               ensure that all audit standards are met.
for Land Reuse. Delta Institute
contracted with Weiss, Sugar, Dvorak           2.		 Perform appropriate quality control review of the single audit
& Dusek, Ltd., to conduct the                       for Delta Institute and Affiliates for Year Ended June 30, 2003,
required single audit.                              and provide the documented results of this review to our office
                                                    for review.

                                               3.		 Correct audit documentation deficiencies identified, as part of
                                                    our review.
For further information, contact our
Office of Congressional and Public        Weiss, Sugar, Dvorak & Dusek, Ltd., concurred with our recommendations
Liaison at (202) 566-2391.                and has completed all corrective action.
To view the full report, click on the
following link:
www.epa.gov/oig/reports/2006/
20060817-2006-S-00004.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL


                                          August 17, 2006

MEMORANDUM


SUBJECT: 	 Quality Control Review of Weiss, Sugar, Dvorak & Dusek, Ltd.,
           Single Audit of the Delta Institute and Affiliates for
           Year Ended June 30, 2003
           Report No. 2006-S-00004

               /s/ Janet G. Kasper
FROM:          Janet G. Kasper, Acting Director
               Assistance Agreement Audits

TO: 	          Richard Kuhlman, Director
               Grants Administration Division

This is our final report on the quality control review of the single audit of the Delta Institute and
Affiliates for year ended June 30, 2003, performed by Weiss, Sugar, Dvorak & Dusek, Ltd. The
report represents the opinion of the Office of Inspector General (OIG), and the findings
contained in this report do not necessarily represent the final U.S. Environmental Protection
Agency (EPA) position. The OIG has no objection to the release of this report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – $50,040.

On July 17, 2006, we issued a draft report to the single auditor for comment. The single auditor
agreed with all of the findings in our report, and took appropriate corrective action. We have
included an analysis of the single auditor’s response in the appropriate sections of this report.
The single auditor’s entire response is included as Appendix B to our report.

Action Required

The reported finding and related recommendations have been adequately addressed by the single
auditor, and no action is required by EPA. Therefore, this report is being closed upon issuance.
If you or your staff has any questions regarding this report, please contact me at (312) 886-3059
or Leah Nikaidoh at (513) 487-2365.

Enclosure
                            Weiss, Sugar, Dvorak & Dusek, Ltd., Single Audit of the 

                           Delta Institute and Affiliates for Year Ended June 30, 2003 



                                     Table of Contents 


Purpose....................................................................................................................    1     


Background .............................................................................................................       1



Results of Review....................................................................................................          1     


      Single Auditor Did Not Have Adequate Quality


        Control Review Procedures.........................................................................                     1


      Single Auditor Response and OIG Evaluation ...............................................                               4


Recommendations ..................................................................................................             4     


Action Required.......................................................................................................         4     


Status of Recommendations and Potential Monetary Benefits ..........................                                           5





Appendices
     A Scope and Methodology and Prior Audit Coverage...................................                                       6     


     B Single Auditor’s Response ..........................................................................                    7


     C Distribution ...................................................................................................       14 

Purpose
The purpose of the quality control review of a single audit is to determine whether the audit was
conducted in accordance with generally accepted government auditing standards; the audit and
reporting requirements of Office of Management and Budget (OMB) Circular A-133, Audits of
States, Local Governments, and Non-Profit Organizations, including its related Compliance
Supplement; and other applicable audit guidance.

Background
Under OMB Circular A-133, entities that expend Federal funds of $300,000 or more in a given
year are required to have a single audit conducted. Subpart D (of OMB Circular A-133) enables
the OIG to conduct quality control reviews of single audits. Weiss, Sugar, Dvorak & Dusek,
Ltd., conducted the single audit of Delta Institute for the year ended June 30, 2003. Delta
Institute and its affiliates incurred $420,436 expenditures under EPA assistance agreements in
FY 2003.

As part of performing a quality control review, the reviewer is to determine whether any
noncompliance results in a substandard audit or a technically deficient audit. A substandard
audit contains significant audit deficiencies that could potentially affect the audit results, thus
making the report unusable for fulfilling one or more audit objectives. Technically deficient
audits have deficiencies requiring corrective action that do not appear to affect the audit results.

Results of Review
Weiss, Sugar, Dvorak & Dusek, Ltd., did not have sufficient quality control review procedures in
place to ensure that all audit work performed was adequately supported by documentary
evidence, as required by the government auditing standards. As a result, we found that one
finding presented in the single audit report had no documented evidence to support this finding.
Until these deficiencies were corrected, we did not have assurance that the single auditor met
generally accepted government auditing standards.

On July 21, 2006, Weiss, Sugar, Dvorak & Dusek, Ltd., submitted a response to our draft quality
control review report. The single auditor agreed with our recommendations and corrected all
reported deficiencies. On August 8, 2006, we held an exit conference with the single auditor.

Single Auditor Did Not Have Adequate Quality Control Review Procedures

The single auditor did not have sufficient quality control review procedures in place to ensure
that all audit work performed was adequately supported by documentary evidence, as required by
the government auditing standards. As a result, we found that one finding presented in the single
audit report had no documented evidence to support this finding.

In accordance with Government Auditing Standards (GAS) 3.49, the general standard for quality
control and assurance:



                                                  1

       Each audit organization performing audits and/or attestation engagements in
       accordance with GAGAS should have an appropriate internal quality control
       system in place….

In addition, GAS 4.24(d) requires that the audit work should contain:

       evidence of supervisory review, before the audit report is issued, of the work
       performed that supports findings, conclusions, and recommendations contained in
       the audit report.

More specifically, GAS 3.50 states:

       …An audit organization’s internal quality control system should include 

       procedures for monitoring, on an ongoing basis, whether the policies and 

       procedures related to the standards are suitably designed and are being 

       effectively applied. 


During our review, we found no evidence that anyone other than the auditor at Weiss, Sugar,
Dvorak & Dusek, Ltd., reviewed the Delta Institute single audit report or the supporting working
papers. The single auditor agreed that supervisory reviews of the audit report and working
papers were not performed. He stated that the firm does not review a partner’s working papers.
As a partner, he felt that it was unnecessary for his working papers to be reviewed by someone
else, i.e., another partner. In addition, being a small CPA firm, each partner acts as a sole
practitioner. Also, he stated, he had discussed this situation with the firm’s peer reviewers. The
peer reviewers, according to the single auditor, did not consider this an issue.

We discussed this issue with the Government Accountability Office’s (GAO’s) Audit Standards
Branch. They told us that in the case where there is more than one partner (i.e., not a sole
practitioner), a second partner should perform a review of the working papers, as part of the
firm’s quality assurance process. If there is no one in the firm that is qualified to perform this
review, then the single auditor should contact an outside practitioner to perform this review.

Because the single auditor did not ensure that his work was reviewed to meet government
auditing standards, the single auditor failed to adequately document his conclusions and findings.
For single audit report Finding 03-03, there was no supporting working papers for this finding.
Finding 03-03 in the audit report stated:

     Staff responsible for determining activities allowed and allowable costs under
     programs was not given printed cost principle circulars with which to refer to in
     making such determinations. It was necessary for staff to refer to such information
     via the Internet. Costs are allowable charges to programs as mandated by the
     grant agreement and Circulars A-110, A-122 and 40 CFR 30.21.

The audit report recommended that Delta Institute provide Federal cost principles to staff
responsible for accounting and administering grant funds. In its response, Delta Institute agreed
with the recommendation stating, “We concur with the recommendation and it was implemented
on October 21, 2004.” When we asked for support regarding this finding, the single auditor said


                                                 2

that the finding was based on discussions with Delta Institute staff, but the discussions were not
documented in the working papers.

There were also instances where working paper conclusions were either missing or incomplete.
These deficiencies resulted in the single auditor having to provide verbal explanations to us
during our review. The explanations were necessary to determine that the auditor’s reported
opinions and findings were sufficiently supported.

Working papers should reflect the evidence, and include the objective(s), scope, methodology,
criteria, and conclusion(s) on which findings are based. They provide the principal support for
the auditor’s report and allow for review of audit quality. OMB Circular A-133, Government
Auditing Standards, and American Institute of Certified Public Accountants (AICPA) Statements
on Auditing Standards all contain requirements for documenting working papers.

Under OMB Circular A-133, single auditors are required to comply with Government Auditing
Standards (GAS). In accordance with GAS 4.23, information contained in audit documentation
constitutes the principal record of work that the auditors performed in accordance with
professional standards and the conclusions that the auditors have reached. GAS 4.22 states that

       Audit documentation related to planning, conducting, and reporting on the audit should
       contain sufficient information to enable an experienced auditor who has had no previous
       connection with the audit to ascertain from the audit documentation the evidence that
       supports the auditors’ significant judgments and conclusions.

GAS 4.24(d) states that audit documentation should contain evidence of supervisory review,
before the audit report is issued, of the work performed that supports findings, conclusions, and
recommendations contained in the audit report. GAS 5.16 states that auditors should include in
their audit documentation evidence of all communications to officials of the audited entity about
deficiencies in internal control found during the audit.

In addition to the audit documentation and supervisory review requirements under GAS 4.22,
4.24, and 5.16, AICPA Statements on Auditing Standards Number 96 requires that audit
documentation be sufficient to show that standards of fieldwork have been observed. The
criteria for documentation to be included in the working papers should enable reviewers to
understand the audit work performed, who performed and reviewed the work, and the nature of
the audit evidence examined.

AU Section 339, entitled “Audit Documentation” also provides that, as part of ensuring that
adequate audit work is performed and related documentation obtained, the audit firm should have
in place a system of quality control policies to ensure that professional standards and generally
accepted government auditing standards are met. As part of this system, review of audit
documentation by the firm is one of the procedures to monitor compliance with applicable
standards.




                                                 3

Single Auditor Response and OIG Evaluation

The single auditor agreed, “All audits performed under generally accepted governmental
auditing Standards (GAGAS) will be reviewed by an audit partner of the firm qualified to
perform such a review. This will be done even in cases such as the Delta audit where an
audit partner has performed substantial portions of the engagement work.” In view of the
fact that the single audit firm’s procedures have been changed, and all work under
GAGAS, in the future will be reviewed by a partner, the OIG considered this issue
resolved.

The single auditor had a partner of the firm qualified to perform and review GAGAS
audits has reviewed the subject audit, and provided documentation to support this review.
The OIG reviewed the documentation submitted by the single auditor and consider this
issue resolved.

The single auditor also prepared a memo to the working papers that documented his
discussions with the grant recipient related to Finding 03-03 in the single audit report.
The OIG reviewed the documentation submitted by the single auditor and consider this
issue resolved.

Due to the fact that the single auditor revised its policy for review of GAGAS audit work,
completed a partner review of the Delta Institute and Affiliates, Inc. audit work, and
supported the exceptions we noted in our draft report, the single audit now meets
GAGAS and OMB Circular A-133 requirements.

Recommendations
We have no recommendations for EPA.

Action Required
All findings in our draft report have been resolved and no action is required by EPA. Therefore,
this report has been closed upon issuance. If you or your staff has any questions regarding this
report, please contact me at (312) 886-3059 or Leah Nikaidoh at (513) 487-2365.




                                                 4

                                   Status of Recommendations and 

                                     Potential Monetary Benefits 


                                                                                                                                  POTENTIAL MONETARY
                                                       RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                      Planned
     Rec.    Page                                                                                                    Completion   Claimed    Agreed To
     No.      No.                           Subject                             Status1       Action Official           Date      Amount      Amount

      1      At-a-	 Implement adequate quality control procedures to              C          Director, Grants
            Glance 	 ensure that all audit work, regardless of who                         Administration Division
                     performs the audit, is reviewed, to ensure that all
                     audit standards are met.
      2      At-a-	 Perform appropriate quality control review of the             C          Director, Grants
            Glance 	 single audit for Delta Institute and Affiliates for Year              Administration Division
                     Ended June 30, 2003, and provide the documented
                     results of this review to our office for review.
      3      At-a-	 Correct audit documentation deficiencies identified,          C          Director, Grants
            Glance 	 as part of our review.                                                Administration Division


1	    O = recommendation is open with agreed-to corrective actions pending
      C = recommendation is closed with all agreed-to actions completed
      U = recommendation is undecided with resolution efforts in progress




                                                                                      5

                                                                                    Appendix A


                         Scope and Methodology
                         and Prior Audit Coverage
Scope and Methodology

We conducted a quality control review of the Weiss, Sugar, Dvorak & Dusek, Ltd., audit of
Delta Institute for the year ended June 30, 2003, and the resulting reporting package that they
submitted to the Federal Audit Clearinghouse, dated February 10, 2005. We performed the
review using the 1999 editions of the Uniform Quality for Initial Review of A-133 Reports, and
the Uniform Quality Control Review Guide for the A-133 Audits, issued by the President’s
Council on Integrity and Efficiency. These guides apply to any single audit subject to OMB
Circular A-133 and the approved checklist of the President’s Council on Integrity and Efficiency
for performing the quality control reviews.

We conducted our review in April and May 2006 in accordance with applicable Government
Auditing Standards, issued by the Comptroller General of the United States. We assessed the
following areas:

         •   Qualification of Auditors
         •   Independence
         •   Due Professional Care
         •   Quality Control
         •   Planning and Supervision
         •   Federal Receivables and Payables
         •   Other Standards Affecting Federal Awards
         •   Determination of Major Programs
         •   Schedule of Expenditures of Federal Awards
         •   Audit Follow-up
         •   Reporting
         •   Data Collection Form
         •   Materiality
         •   Internal Controls
         •   Compliance Testing

We reviewed the audit documentation prepared by the single auditor, and discussed the audit
results with the single auditor representative.

Prior Audit Coverage

None.




                                               6

	




                                                                                                           Appendix B


                                  Single Auditor's Response



    WEISS, SUGAR, DVORAK & DUSEK, LTD.
    Certified Public Accountants & Consultants                                                         Stanley H. Weiss, CPA
    20 North Wacker Drive, Suite 2250                                                                  David S. Sugar, CPA
    Chicago, Illinois 60606                                                                            Kenneth G. Dvorak, CPA
    Telephone: (312) 332-6622                                                                          Frank A . Dusek, CPA
    Facsimile: (312) 332-3707                                                                          Robert Rehayem, CPA




                                                                 July 21, 2006




             Mr. Michael A . Rickey, Director

             Assistance Agreement Audits

             United States Environmental Protection Agency

             Washington, D .C . 20460



              RE : Quality Control Review of Weiss, Sugar, Dvorak & Dusek, Ltd.

                   Single Audit of the Delta Institute and Affiliates

                   For Year Ended June 30, 2003



             Dear Mr. Rickey:

             This correspondence represents our response to your draft quality control review report dated
             July 17, 2006 on the single audit performed by Weiss, Sugar, Dvorak & Dusek, Ltd ., of the Delta
             Institute and Affiliates for the year ended June 30, 2003 . Our specific responses to your
             recommendations are as follows:

             Recommendation 1
             We agree that in the future all audits performed under generally accepted government auditing
             standards (GAGAS) will be reviewed by an audit partner of the firm qualified to perform such a
             review. This will be done even in cases such as the Delta audit where an audit partner has
             performed substantial portions of the engagement work.

             We wish to point out that most of the work on the Delta audit was performed by a partner of the
             firm . Junior staff performed limited portions of the audit, and this work was in fact reviewed by the
             audit partner and documented in our working papers . Our firm has participated in the Peer
             Review program of the AICPA since 1991 and has received unqualified opinions from our
             reviewer each year. Our position on partner review of partner work has never been an issue with
             our peer reviewer . We believe that the results of our peer reviews (which includes audits
             performed under GAGAS) supports the high level of internal quality controls we maintain . The
             GAS statements referred to in your report do not specifically address the situation encountered
             on this audit (i .e . partner on partner review), however, as stated, we will change our policy to
             comply with your request .




                                                          7

Mr . Michael A. Rickey, Director
July 20, 2006
Page 2


Recommendation 2
A partner of the firm qualified to perform and review GAGAS audits has reviewed the subject
audit. This review has been documented on page 4 of the "Nonprofit Organization Audit
Supervision, Review, and Approval Form" included in the attached PDF file.


Recommendation 3
We prepared a memo to the work papers documenting our discussions with the client related to
Finding 03-03 . It is included in the attached PDF file.



If I can be of any further assistance, please do not hesitate to contact me.


                                                  Sincerely yours,




                                                  Robert Rehayem
RR/




                                              8
		




      NPO 3/03                                                                                                   NCX-19




                                                                                                                 Index
                               NCX-19 : Nonprofit Organization Audit Supervision, Review,
                                                   and Approval Form

     Organization : Delta Institute	                              Statement of Financial Position Date: 06/30/2003

      Instructions : This form should be completed as the last procedure before issuance of the signed auditor's
     report . Any item answered "No" should be explained in the "Comments" column or in an attached
      memorandum . File this form in the general file.

     For audits performed in accordance with Government Auditing Standards (as amended) (Yellow Book), the
     authors have been informed by a senior GAO official that, based on the official's interpretation of the Yellow '
     Book, the official expects to see "supervisory" initials on "significant" workpapers, such as summary
     spreadsheets and other "important" workpapers . The supervisory initials may be those of a partner or
     someone in a supervisory position . (A sole practitioner is not expected to engage another practitioner to
     review and initial his or her workpapers .) A further explanation of which workpapers are "significant" was not
     offered .

                                                                                   Yes          N/A     Comments

         Detailed Review (To be performed by the staff person in
         charge of fieldwork .)

         1.	 I have reviewed all workpapers prepared by the personnel in

             my charge on this engagement and, if applicable, have

             initialed all "significant" workpapers . Each schedule is

             complete, properly headed, initialed, indexed, and cross-

             referenced.


         2.	   I have reviewed the permanent file and general file, and     all

               relevant information has been incorporated or cross-

               referenced.


         3.	   I have compared the work performed as evidenced by our

               work-papers with the procedures called for by the audit

               programs and find that our audit complies with the

               requirements of the programs.


        4.	    I have compared the workpapers with the general ledger

               trial balance and find that satisfactory audit recognition has

               been given to all asset, liability, net asset, support,

               revenue, expense, and reclassification accounts, (and if

               applicable, program expenditures related to major federal

               award programs).


        5.	    I have reviewed all workpapers and am satisfied that all

               significant audit findings or issues are adequately

               addressed and documented .





                                                              9
­­­­­­­




 NPO 3/03                                                                                          NCX-19




                                                                                        N/A
                                                                            Yes    No         Comments

     6.   I have reviewed the completed audit programs and am
          satisfied that our audit, as evidenced by the workpapers
          reviewed by me, was conducted in accordance with
          generally accepted auditing standards (and, if applicable,
          with the GAO's Government Auditing Standards and the
          requirements related to a Single Audit).

     7.   I have compared the accounts in the general ledger trial
          balance with their summarizations, classifications,
          descriptions, and disclosures in the financial statements.

     8.   I have obtained a review of the tax accrual and provision (if
          applicable) by the tax department and included their
          approval in the workpapers . (Optional step .)

     9.   I have reviewed the financial statements and am satisfied
          that they meet accepted standards of presentation and
          disclosure and that they have been prepared in conformity
          with generally accepted accounting principles (or an other
          comprehensive basis of accounting) consistently applied . A
          financial disclosure checklist has been completed.

     10 . If applicable, I have reviewed the Schedule of Expenditures
           of Federal Awards and am satisfied that it meets accepted
           standards of presentation and disclosure and that it has
           been prepared in accordance with Single Audit reporting
           requirements.

     11 . I have reviewed the legal representation and management
           representation letters for consideration of all important
           representations.

     12 . I have reviewed the auditor's report on the financial
           statements and am satisfied it properly expresses our
           opinion in accordance with generally accepted auditing
           standards (and, if applicable, the GAO's Government
           Auditing Standards).

     13 . If applicable, I have reviewed the auditor's reports required
           by Government Auditing Standards and OMB Circular A­
           133 and am satisfied that they are in accordance with the
           standards described in Step 5 .
                                    A~     A
 In-Charge's Signature :           /V~ l~rl ~                             Date :




                                                       10
	




    NPO 3/03                                                                                          NCX-19




                                                                                Yes   No   NIA   Comments

       Partner Review (To be performed by the Engagement Partner.
       Omit all except the last three items if the detailed review was
       performed by a Partner.)

        1.     I have reviewed the planning documents and am satisfied

               with the sufficiency of the audit programs.


       2.      I have reviewed all workpapers prepared by the personnel in
               my charge on this engagement that were not reviewed as a
               part of the detailed review and, if applicable, have initialed
               all "significant" workpapers.

       3.    I have also reviewed sufficient additional workpapers to be
             satisfied with the adequacy of our audit and with the
             detailed review.

       4.    I have reviewed the completed audit programs and am
             satisfied that our audit, as evidenced by the workpapers
             reviewed by me, was conducted in accordance with
             generally accepted auditing standards (and, if applicable,
             with the GAO's Government Auditing Standards and the
             requirements related to a Single Audit).

       5.    I have reviewed the financial statements and am satisfied
             that they meet accepted standards of presentation and
             disclosure and that they have been prepared in conformity
             with generally accepted accounting principles (or an other
             comprehensive basis of accounting) consistently applied.

       6.    If applicable, I have reviewed the Schedule of Expenditures
             of Federal Awards and am satisfied that it meets accepted
             standards of presentation and disclosure and that it has
             been prepared in conformity with Single Audit reporting
             requirements.

       7.    I have reviewed the legal representation and management
             representation letters for consideration of all important

             representations.


       8.    I have reviewed the auditor's report on the financial
             statements and am satisfied it properly expresses our
             opinion in accordance with generally accepted auditing
             standards (and, if applicable, the GAO's Government
             Auditing Standards) .




                                                           11
	




     NPO 3103                                                                                                NCX-19




                                                                                  Yes     No     NIA   Comments

         9.   If applicable, I have reviewed the auditor's reports required
              by Government Auditing Standards and OMB Circular A-
              133 and am satisfied they are in accordance with the
              standards described in Step 4.

         10 . I have reviewed documentation relating to any significant
               audit findings or issues, significant consultations, unusual
               technical issues, and resolution of disagreements on
               technical issues among personnel assigned to the audit
               engagement . In addition, I am satisfied that consultation
               has occurred in all areas required by firm policy and any
               other areas deemed necessary.

        11 . I have communicated to the engagement team the
              importance of exercising professional skepticism . I have
             ascertained that there has been appropriate
             communication among the engagement team throughout
             the audit regarding information or conditions that indicate
             risks of material misstatement due to fraud.

        12 . I approve issuance of our report on the financial
              statements .
                                                IA
    Partner's Signature:                      /j/In                             Date:

                                                                                  Yes    No     NIA    Comments

        Review by Independent Partner or Independent Review
        Department (Required only at the Engagement Partner's option
        or if the firm's quality control policies and procedures require this
        step .)

        1.    The preceding review sections of this form have been
              completed to my satisfaction.

       2.     I have read the financial statements and the auditor's               I
              reports referred to in the previous section (as applicable).

       3.     I approve issuance of our report on the financial
              statements .

    Completed by :                                                              Date :         01,

                                                                                 Yes     No     NIA    Comments

       Partner Signing Auditor's Report(s)




                                                           12
The Delta Institute

Memo Re : Cost Principles for Government Funds

June 30, 2003




Based on discussions with Delta personnel (Saundra Fleming –Accountant,
Janet Hanley – Outside CPA and Lillian Saez – Bookkeeper), it was noted that
Delta staff responsible for determining activities allowed and allowable costs
under programs were not given printed cost principle circulars with which to refer
to in making such determinations . The staff should be given and trained in the
use of Circulars A-110, A-122 and 40-CFR 30 .21.



This situation will be reported in the Findings and Questioned Costs section of
the single audit report .




                                  13

                                                             Appendix C

                                      Distribution 

EPA

Director, Grants Administration Division
Audit Followup Coordinator, Grants Administration Division
Agency Followup Coordinator
Director, Office of Grants and Debarment
Acting Inspector General


External

Weiss, Sugar, Dvorak & Dusek, Ltd.,




                                            14 

